March 26, 2012

TO:            George Sheldon
               Acting Assistant Secretary
               Administration for Children and Families


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Iowa Improperly Claimed Some Child Care and Development Targeted Funds
               (A-07-11-03163)


Attached, for your information, is an advance copy of our final report on our review of the fiscal
years 2004 through 2008 Child Care and Development Targeted Funds in Iowa. We will issue
this report to the State of Iowa within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov or Patrick J. Cogley, Regional
Inspector General for Audit Services, Region VII, at (816) 426-3591 or through email at
Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-03163.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106

March 28, 2012

Report Number: A-07-11-03163

Mr. Charles M. Palmer
Director
Department of Human Services
Hoover State Office Building, Fifth Floor
1305 East Walnut Street
Des Moines, IA 50319-0114

Dear Mr. Palmer:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Iowa Improperly Claimed Some Child Care and
Development Targeted Funds. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Mr. Charles M. Palmer


If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-11-03163 in
all correspondence.

                                            Sincerely,



                                            /Patrick J. Cogley/
                                            Regional Inspector General
                                              for Audit Services


Enclosure

Direct Reply to HHS Action Official:

Ms. Shannon Rudisill
Director
Office of Child Care
Administration for Children and Families
U.S. Department of Health and Human Services
901 D Street SW
Aerospace 5th Floor East
Washington, DC 20447
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  IOWA IMPROPERLY CLAIMED
      SOME CHILD CARE
     AND DEVELOPMENT
      TARGETED FUNDS




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-07-11-03163
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public and private local agencies.

Child Care and Development Fund

Pursuant to the Child Care and Development Block Grant Act and section 418 of the Social
Security Act, the Child Care and Development Fund (CCDF) assists low-income families,
families receiving temporary public assistance, and families transitioning from public assistance
in obtaining childcare so that family members can work or attend training or education. The
CCDF provides targeted discretionary funding for certain activities, such as Infant and Toddler,
Quality, and School Age Resource and Referral activities, to improve the availability, quality,
and affordability of childcare and to support the administration of these activities. These
activities are 100 percent federally funded. States are required to report expenditures of targeted
funds on the quarterly Child Care and Development ACF-696 Financial Report (ACF-696
report), which is a cumulative report for the Federal fiscal year (FY).

Under the CCDF program, State Lead Agencies have considerable latitude in administering and
implementing their childcare programs. Every 2 years each State must develop, and submit to
ACF for approval, a CCDF State plan. The State plan must designate a Lead Agency that has the
responsibility to administer and maintain overall responsibility for childcare programs. In Iowa,
the Department of Human Services (State agency) is the Lead Agency and is responsible for
administering the CCDF program.

The State agency claimed CCDF targeted funds totaling $12,884,014 on its ACF-696 reports for
FYs 2004 through 2008.

OBJECTIVE

Our objective was to determine, for FYs 2004 through 2008, whether the State agency complied
with Federal requirements when claiming CCDF targeted funds for Federal reimbursement.

SUMMARY OF FINDINGS

Of the $12,884,014 that the State agency claimed for CCDF targeted funds, the State agency did
not comply with Federal requirements when claiming $2,654,238 for FYs 2004 through 2008.
Specifically, the State agency (1) improperly reobligated $2,464,723 of FY 2004 targeted funds
after the obligation period had ended, (2) improperly obligated $134,209 of FY 2006 CCDF
targeted funds to another entity at the same level in the State government as the State agency,
and (3) did not refund to the Federal Government the $55,306 of targeted funds that either were
returned by the grantee after the obligation period had ended or remained unliquidated after the



                                                 i
liquidation period ended. For the remaining $10,229,776 of CCDF targeted funds, the State
agency obligated and liquidated the funds in accordance with Federal requirements.

These errors occurred because the State agency did not have adequate policies and procedures in
place to monitor the obligation and liquidation of CCDF targeted funds pursuant to Federal
requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $2,464,723 for FY 2004 targeted funds that were not
       properly obligated,

   •   refund to the Federal Government $134,209 for FY 2006 targeted funds that were not
       properly obligated,

   •   refund to the Federal Government $55,306 in FY 2004 through 2008 targeted funds that
       were returned after the obligation period had ended or were not properly liquidated, and

   •   develop sufficient policies and procedures to monitor the expenditure of CCDF targeted
       funds to ensure that expenditures are properly obligated and liquidated.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second and third
recommendations and the associated findings and described corrective actions that it planned to
implement. The State agency did not concur with our first recommendation and partially
concurred with our fourth recommendation.

Regarding our first recommendation, the State agency said that the targeted funds for FYs 1998
through 2003 were obligated and liquidated in compliance with Federal and State regulations.
The State agency added that, for the same reasons, the FY 2004 targeted funds were obligated
and liquidated correctly. The State agency also stated that ACF agreed with its methodology for
handling the FY 2004 targeted funds after the dissolution of the contractor to which the
$2,464,723 had been obligated.

Regarding our fourth recommendation, the State agency described corrective actions that it had
taken or planned to take to monitor the expenditure of CCDF targeted funds. The State agency
stated that it had tracked the obligation and liquidation timeframes for funds issued to
contractors; however, in some instances providers did not submit invoices for grants that they
had requested or cash checks that they had received, resulting in unexpended funds.

The State agency’s comments appear in their entirety as the Appendix.




                                               ii
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The State agency’s comments regarding the obligation and
liquidation of targeted funds for FYs 1998 through 2003 refer to our prior audit
(A-07-07-00231, issued August 21, 2008), in which we found that the State agency did not
comply with Federal regulations. We recommended in that audit that the State agency refund the
unexpended targeted funds to the Federal Government; ACF upheld that recommendation.

The FY 2004 targeted funds that we reviewed in the current audit were obligated to the same
contractor involved in the targeted funds for FYs 1998 through 2003; however, the FY 2004
targeted funds were never disbursed to that contractor. In the current audit, we determined that
the FY 2004 targeted funds were deobligated (funds no longer obligated) after the obligation
period had ended (September 30, 2005) as a result of the termination of the contract on June 30,
2006. Federal regulations require that funds deobligated after the end of the applicable
obligation period be returned to the Federal Government.

In addition, a letter sent by ACF to the State agency specified that the allowability of the
FY 2004 targeted funds would depend upon the proper obligation and liquidation of those funds.
ACF added that it would make a determination on the allowability of the FY 2004 targeted funds
based upon an audit that we would conduct. We reviewed these targeted funds during the
current audit and determined that the FY 2004 targeted funds were improperly reobligated and
therefore should be refunded to the Federal Government.

With respect to the State agency’s partial concurrence with our fourth recommendation, we
commend the State agency for tracking the liquidation and obligation timeframes. Nevertheless,
in its role as the Lead Agency, the State agency is responsible for ensuring that it obtains the
documentation needed to support the claimed targeted funds from the contractors and maintains
that documentation.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Child Care and Development Fund..................................................................... 1
              Administration of Child Care and Development Fund at State Level ................ 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ........................................................................... 3

          FISCAL YEAR 2004 TARGETED FUNDS IMPROPERLY REOBLIGATED .......... 3
               Federal Requirements ......................................................................................... 3
               Unallowable Reobligation of Targeted Funds .................................................... 4

          FISCAL YEAR 2006 TARGETED FUNDS IMPROPERLY OBLIGATED ............... 4
               Federal Requirements ......................................................................................... 4
               Unallowable Obligation of Targeted Funds ........................................................ 4

          TARGETED FUNDS NOT PROPERLY LIQUIDATED OR REFUNDED ................ 4
              Federal Requirements ......................................................................................... 4
              Unliquidated or Returned Funds ......................................................................... 5

          INADEQUATE POLICIES AND PROCEDURES ....................................................... 5

          RECOMMENDATIONS ................................................................................................ 6

          STATE AGENCY COMMENTS ................................................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 7

APPENDIX

          STATE AGENCY COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public and private local agencies.

Child Care and Development Fund

Pursuant to the Child Care and Development Block Grant Act and section 418 of the Social
Security Act, the Child Care and Development Fund (CCDF) assists low-income families,
families receiving temporary public assistance, and families transitioning from public assistance
in obtaining childcare so that family members can work or attend training or education. The
CCDF provides targeted discretionary funding 1 for certain activities, such as Infant and Toddler,
Quality, and School Age Resource and Referral (SAR&R) activities, to improve the availability,
quality, and affordability of childcare and to support the administration of these activities. These
activities are 100 percent federally funded. States are required to report expenditures of targeted
funds on the quarterly Child Care and Development ACF-696 Financial Report (ACF-696
report), which is a cumulative report for the Federal fiscal year (FY).

Administration of Child Care and Development Fund at State Level

Under the CCDF program, State Lead Agencies have considerable latitude in administering and
implementing their childcare programs. Each State must develop, and submit to ACF for
approval, a State plan that identifies the purposes for which CCDF targeted funds will be
expended for two grant periods (i.e., 2 FYs). Federal regulations (45 CFR § 98.60) require that
CCDF discretionary funds, which include targeted funds, be obligated and liquidated within a
specified timeframe. Funds that are neither obligated nor liquidated within this timeframe must
revert to the Federal Government.

Furthermore, the State plan must designate a Lead Agency responsible for administering
childcare programs. Federal regulations (45 CFR § 98.11(b)) state: “In retaining overall
responsibility for the administration of the program, the Lead Agency shall: … (5) Oversee the
expenditure of funds by subgrantees and contractors; (6) Monitor programs and services; …
(8) Ensure that all State and local or non-governmental agencies through which the State
administers the program, including agencies and contractors that determine individual eligibility,
operate according to the rules established for the program.”

In Iowa, the Department of Human Services (State agency) is the Lead Agency and is
responsible for administering the CCDF program. As the Lead Agency, the State agency is
required to oversee the expenditure of funds by contractors, grantees, and other agencies of the


1
  Congress specifically appropriates funding each year for these targeted activities. Targeted funds were referred to
in the past as “earmarks.” ACF Program Instruction, CCDF-ACF-PI-2007-05 (July 17, 2007).


                                                          1
Iowa State government to ensure that the funds are expended in accordance with Federal
requirements.

We undertook this review of Iowa’s CCDF program at ACF’s request and in response to
information provided by ACF’s regional office.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for FYs 2004 through 2008, whether the State agency complied
with Federal requirements when claiming CCDF targeted funds for Federal reimbursement.

Scope

We reviewed the $12,884,014 of targeted funds that the State agency claimed on its ACF-696
reports for FYs 2004 through 2008. We did not perform a detailed review of the State agency’s
internal controls because our objective did not require us to do so. We limited our review to the
controls related to the obligation and liquidation of the targeted funds.

We conducted fieldwork at the State agency in Des Moines, Iowa, from December 2010 through
March 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws and the approved Iowa CCDF State plans;

   •    reviewed the ACF-696 reports for FYs 2004 through 2008 to determine the amount of
        targeted funds that the State agency claimed;

   •    interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
        understanding of how the reports were prepared, how the targeted funds were reported,
        and what documentation was maintained to support expenditures on the reports;

   •    reviewed the State agency’s contracts with and the timing of payments to contractors in
        relation to liquidation and obligation requirements of the targeted funds for FYs 2004
        through 2008;

   •    reviewed the State agency’s documentation used to prepare the ACF-696 reports;

   •    reviewed documentation submitted by contractors to the State agency in support of the
        expenditure of targeted funds;

   •    judgmentally selected 46 targeted fund disbursements for more detailed review;


                                                2
       •   interviewed staff of other agencies of the Iowa State government and of contractors that
           received targeted funds to obtain an understanding of the oversight provided by the State
           agency and how the funds were reimbursed;

       •   judgmentally selected two other agencies of the Iowa State government, one fiscal agent, 2
           and one contractor, and reviewed selected payments and supporting documentation
           maintained at their locations; and

       •   discussed the results of our review with State agency officials on July 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                  FINDINGS AND RECOMMENDATIONS

Of the $12,884,014 that the State agency claimed for CCDF targeted funds, the State agency did
not comply with Federal requirements when claiming $2,654,238 for FYs 2004 through 2008.
Specifically, the State agency (1) improperly reobligated $2,464,723 of FY 2004 targeted funds
after the obligation period had ended, (2) improperly obligated $134,209 of FY 2006 CCDF
targeted funds to another entity at the same level in the State government as the State agency,
and (3) did not refund to the Federal Government the $55,306 of targeted funds that either were
returned by the grantee after the obligation period had ended or remained unliquidated after the
liquidation period ended. For the remaining $10,229,776 of CCDF targeted funds, the State
agency obligated and liquidated the funds in accordance with Federal requirements.

These errors occurred because the State agency did not have adequate policies and procedures in
place to monitor the obligation and liquidation of CCDF targeted funds pursuant to Federal
requirements.

FISCAL YEAR 2004 TARGETED FUNDS IMPROPERLY REOBLIGATED

Federal Requirements

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.”
Additionally, 45 CFR § 98.60(d)(7) states that “[a]ny funds not obligated during the obligation
period specified in paragraph (d) of this section will revert to the Federal government.”




2
    The term “fiscal agent” refers to a contractor that disburses targeted funds to grantees.


                                                              3
Unallowable Reobligation of Targeted Funds

The State agency claimed $2,464,723 of FY 2004 targeted funds ($903,915 of Infant and
Toddler funds and $1,560,808 of Quality funds) that were unallowable because the State agency
reobligated the targeted funds after the obligation period had ended.

The obligation period for the FY 2004 targeted funds ended on September 30, 2005. The State
agency obligated the $2,464,723 of targeted funds in a contract with a single contractor and did
so within the timeframe specified by Federal regulations. However, in June 2006 (after the
obligation period had ended), the State agency terminated its contract with the contractor without
having disbursed the $2,464,723. The State agency then reobligated the FY 2004 targeted funds
to other contractors. In a letter to ACF, the State agency acknowledged that the funds were
reobligated after the obligation period had ended.

FISCAL YEAR 2006 TARGETED FUNDS IMPROPERLY OBLIGATED

Federal Requirements

Federal regulations (45 CFR § 98.60(d)(1)) provide: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.” Federal
regulations (45 CFR § 98.60(d)(5)) further state: “Obligations may include subgrants or
contracts that require the payment of funds to a third party (e.g., subgrantee or contractor).
However, the following are not considered third party subgrantees or contractors: … (ii) Another
entity at the same level of government as the Lead Agency….”

Unallowable Obligation of Targeted Funds

The State agency claimed $134,209 of FY 2006 targeted funds ($103,901 of Quality funds and
$30,308 of Infant and Toddler funds) that were not obligated properly within the prescribed time
period. Specifically, the State agency contracted with other State agencies to expend a portion of
the targeted funds, but these contracts did not constitute valid obligations of funds pursuant to
Federal regulations. These other State agencies did not expend the targeted funds until after the
obligation period had ended. Therefore, the targeted funds that were not expended prior to the
end of the obligation period were unallowable. As a result, $134,209 of FY 2006 targeted funds
was unallowable.

TARGETED FUNDS NOT PROPERLY LIQUIDATED OR REFUNDED

Federal Requirements

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.” Additionally, 45 CFR § 98.60(d)(7) states that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.




                                                4
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”

Unliquidated or Returned Funds

The State agency did not properly liquidate $55,306 in SAR&R targeted funds. During our audit
period, the State agency contracted with the Iowa Afterschool Care Alliance (the Alliance) to
identify and disburse grants to childcare providers within the State. Although the Alliance
properly obligated these funds within the specified obligation period, it did not liquidate $34,150
in FY 2004 SAR&R targeted funds to grantees within the specified liquidation period.

Furthermore, the State agency properly obligated and then drew down all of the FY 2005
SAR&R targeted funds to disburse; however, during its reconciliation the State agency
determined that it did not disburse $7,388 in targeted funds to its contractors. The State agency
identified this error after the liquidation period had ended.

In addition, the grantees returned to the Alliance $13,768 in unexpended grant funds relating to
FYs 2005 through 2008 SAR&R targeted funds after the respective obligation and liquidation
periods had ended. Although the funds initially were obligated and liquidated properly, these
unused funds could not be reobligated because the obligation and liquidation periods had
expired.

Therefore, the State agency claimed $55,306 of unallowable SAR&R targeted funds for
FYs 2004 through 2008.

INADEQUATE POLICIES AND PROCEDURES

These errors occurred because the State agency did not have adequate policies and procedures in
place to monitor the obligation and liquidation of CCDF targeted funds pursuant to Federal
requirements.

Although the State agency performed one site visit per year at each of its contractors and
required that applicable contractors submit audited financial statements, it performed no
monitoring of its CCDF targeted fund contractors to ensure that the contractors properly
obligated and liquidated targeted funds. Of the 46 judgmentally selected targeted fund
disbursements that we reviewed, 20 included only a standard form requesting payment, without
any supporting documentation. In each of these cases, this form contained only a summary of
the disbursement being requested and provided no detail support for the cost incurred.

The Iowa Code requires that documentation contain sufficient detail to support requests for
payments; however, in these cases the State agency did not ensure that the invoices contained




                                                 5
documentation sufficient to support the payment requests prior to the approval of the invoices for
payment. 3

Better monitoring, to include adequate review of the supporting documentation, would have
revealed that the targeted funds were not being obligated and liquidated pursuant to Federal
requirements.

RECOMMENDATIONS

We recommend that the State agency:

    •    refund to the Federal Government $2,464,723 for FY 2004 targeted funds that were not
         properly obligated,

    •    refund to the Federal Government $134,209 for FY 2006 targeted funds that were not
         properly obligated,

    •    refund to the Federal Government $55,306 in FY 2004 through 2008 targeted funds that
         were returned after the obligation period had ended or were not properly liquidated, and

    •    develop sufficient policies and procedures to monitor the expenditure of CCDF targeted
         funds to ensure that expenditures are properly obligated and liquidated.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our second and third
recommendations and the associated findings and described corrective actions that it planned to
implement. The State agency did not concur with our first recommendation and partially
concurred with our fourth recommendation.

The State agency provided several reasons it did not concur with our first recommendation:

    •    The State agency said that the targeted funds for FYs 1998 through 2003 were obligated
         and liquidated in compliance with Federal and State regulations. The State agency added
         that, for the same reasons, the FY 2004 targeted funds were obligated and liquidated
         correctly.

    •    The State agency also stated that it did not “terminate its original contract” without
         disbursing the $2,464,723. The State agency said that it was notified of the decision to
         dissolve the contractor corporation on April 20, 2006. This event occurred after the end

3
  The Iowa Code 8A.514 (2003 Supp.) states: “Before a warrant or its equivalent is issued for a claim payable from
the state treasury, the department shall file an itemized voucher showing in detail the items of service, expense, item
furnished, or contract for which payment is sought.” The standard contract that the State agency enters into with
CCDF providers specifically incorporates this requirement: “The Department [i.e., the State agency] shall pay all
approved invoices in arrears and in conformance with Iowa Code section 8A.514 (2003 Supp.).”



                                                           6
         of the obligation period (September 30, 2005) but before the end of the liquidation period
         (September 30, 2006). The State agency added that the contractor’s board of directors
         voted to dissolve the entity as a corporation, a decision that the State agency “… could
         have neither foreseen nor was forewarned [about].”

    •    The State agency said that thereafter, it collaborated with the ACF Regional Office
         regarding the expenditure of the FY 2004 targeted funds in an effort to “remedy a ‘no
         fault’ situation” brought about by the dissolution of the contractor. Specifically:

             o The State agency said that it reached an agreement with ACF that if the State
               agency could identify appropriate expenditures from the 4-percent “set aside”
               expenditures, 4 and if these appropriate expenditures had been obligated and
               liquidated within the required timeframes, the State agency could revise the
               ACF-696 report to reflect those adjustments.

             o The State agency submitted a revised ACF-696 report in October 2006, along
               with a narrative explanation 2 months later. The State agency said that in the
               absence of any further communication from ACF’s Child Care Bureau, it believed
               that this report had been accepted. The State agency added that the ACF On-line
               Data Collection system indicated that the revised ACF-696 report was reviewed
               and accepted by both the ACF Regional and Central Offices.

Regarding our fourth recommendation, the State agency described corrective actions that it had
taken or planned to take to monitor the expenditure of CCDF targeted funds. The State agency
stated that it had tracked the obligation and liquidation timeframes for funds issued to
contractors; however, in some instances providers did not submit invoices for grants that they
had requested or cash checks that they had received, resulting in unexpended funds.

The State agency’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. The targeted funds for FYs 1998 through 2003 were outside the
scope of this current audit, but we reviewed those funds in a prior audit (A-07-07-00231, issued
August 21, 2008). In that audit, we found that the State agency did not comply with Federal
regulations and recommended that the State agency refund the unexpended targeted funds to the
Federal Government; ACF upheld that recommendation.

The FY 2004 targeted funds that we reviewed in the current audit were obligated to the same
contractor involved in the targeted funds for FYs 1998 through 2003; however, the FY 2004
targeted funds were never disbursed to that contractor. In the current audit, we determined that

4
 The 4-percent “set aside” expenditures refer to the fact that Federal regulations require that no less than 4 percent
of the aggregate amount of CCDF funds expended be used to improve the quality of childcare.




                                                           7
the FY 2004 targeted funds were deobligated (funds no longer obligated) after the obligation
period had ended (September 30, 2005) as a result of the termination of the contract on June 30,
2006. Federal regulations (45 CFR § 98.60(g)) state: “Funds that are returned (e.g. … funds
deobligated by cancellation of a child care certificate, unused subgrantee funds) … shall….
(2) if received after the end of the applicable obligation period … be returned to the Federal
government.”

In addition, a letter sent by ACF to the State agency on September 22, 2006, stated in part: “The
allowability of your proposal [regarding the FY 2004 targeted funds] depends upon the proper
obligation and liquidation of the funds. We plan to make a determination on this issue based
upon an audit by the Office of Inspector General.” In this context, we point out that the ACF
On-line Date Collection system indicated only that the ACF-696 reports had been filed, not that
they had been reviewed and accepted. ACF’s letter to the State agency made it clear that ACF
would not make a determination as to the allowability of the targeted funds until we had audited
them. We reviewed these targeted funds during the current audit and determined that the
FY 2004 targeted funds were improperly reobligated and therefore should be refunded to the
Federal Government.

With respect to the State agency’s partial concurrence with our fourth recommendation, we
commend the State agency for tracking the liquidation and obligation timeframes. Nevertheless,
in its role as the Lead Agency, the State agency is responsible for ensuring that it obtains the
documentation needed to support the claimed targeted funds from the contractors and maintains
that documentation.




                                                8
APPENDIX
                                                                                            Page 1 of 12


                   APPENDIX: STATE AGENCY COMMENTS



                   Iowa Department of Human Services
                   Terry E. Branstad                Kim Reynolds               Charles M. Palmer
                   Governor                         Lt. Governor               Director


  JAN I 2 1011

Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Inspector General
Region VII
601 East 12th Street, Room 0429
Kansas City, MO 64106

RE:   Iowa Improperly Claimed Some Child Care Development Targeted Funds, Draft
Report, A-07-11-03163

Dear Mr. Cogley:

Enclosed please find comments from the Iowa Department of Human Services (DHS) on the
November 17, 2011 draft report concerning Office of Inspector General's (OIG) review of
Child Care Development Targeted Funds at DHS.

DHS appreciates the extension and opportunity to respond to the draft report and provide
additional comments to be included in the final report. Questions about the attached
response can be addressed to:

      Jody Lane-Molnari, Executive Officer II 

      Division of Fiscal Management 

      Iowa Department of Human Services 

      Hoover State Office Building , 1" Floor SW 

      1305 E Walnut Street 

      Des Moines, IA 50319-0114 

      Email: jlanemo@dhs.state.ia.us 

      Phone: 515-281-6027 


Sincerely,




Charles M. Palmer
Director

cc: Greg Tambke, Aud it Manager
Attachments




                           1305 E. Walnut Street, Des Moines, IA 503 19-0114
                                                                                             Page 2 of 12




RE: A-07-11-03163


                        IOWA DEPARTMENT OF HUMAN SERVICES 

                          RESPONSE TO OIG DRAFT REPORT: 


       Iowa Improperly Claimed Some Child Care Development Targeted Funds, 

                           Report Number, A-07-11-03163 



Background

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting Ihe economic and social well-being of children ,
families , and communities. ACF carries out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public and private local agencies.

Pursuant to the Child Care and Development Block Grant Act and section 418 of the Social
Security Act, the Child Care and Development Fund (CCDF) assists low-income families,
families receiving temporary public assistance, and families transitioning from public
assistance in obtaining childcare so that family members can work or attend training or
education. The CCDF provides targeted discretionary funding for certain activities, such as
Infant and Toddler, Quality, and School-Age Resource and Referral activities, to improve Ihe
availability, quality, and affordability of childcare and to support the administration of these
activities. These activities are 100 percent federally funded. States are required to report
expenditures of targeted funds on the quarterly Child Care and Development ACF-696
Financial Report (ACF-6996 report), which is a cumulative report for each Federal fiscal year
(FFY).

Under the CCDF program, State Lead Agencies have considerable latitude in administering
and implementing their childcare programs. Every 2 years each State must develop, and
submit to ACF for approval, a CCDF State plan. The State plan must designate a Lead
Agency that has the responsibility to administer and maintain overall responsibility for
childcare programs. In Iowa , the Department of Human Services (DHS) is the Lead Agency
and is responsible for administering the CCDF program.


OIG Findings and Recommendations

DHS did not have adequate policies and procedures in place to monitor the obligation and
liquidation of some CCDF targeted funds pursuant to Federal requirements.

DHS claimed CCDF targeted funds totaling $12,884,014 on its ACF-696 reports for FYs 2004
through 2008 . In OIG's evaluation of the total CCDF targeted funds claimed, DHS did not
comply with Federal requirements when claiming $2 ,654,238 for FYs 2004 through 2008.

Specifically, DHS:
   • 	 improperly reobligated $2,464 ,723 of FY 2004 targeted funds after the obligation
       period had ended ,
                                                                                            Page 3 of 12




RE: A-07-11-03163


   • 	 improperly obligated $134 ,209 of FY 2006 targeted funds to another entity at the same
       level in the State government as DHS , and

   • 	 did not refund to the Federal Government the $55,306 of targeted funds that either
       were returned by the grantee after the obligation period had ended or remained
       unliquidated after the liquidation period ended .

DHS did properly obligate and liquidate $10,229,776 of CCDF targeted funds in accordance
with Federal requirements.

DIG recommends that DHS:
   • 	 refund to the Federal Government $2,464.723 for FY 2004 targeted funds that were
       not properly obligated,

   • 	 refund to the Federal Government $134,209 for FY 2006 targeted funds that were not
       properly obligated ,

   • 	 refund to the Federal Government $55,306 in FY 2004 through 2008 targeted funds
       that were returned after the obligation period had ended or were not properly
       liquidated, and

   • 	 develop sufficient policies and procedures to monitor the expenditure of CCDF
       targeted funds to ensure that expenditures are properly obligated and liquidated.


DHS Response

Please see the discussion for each of the findings and recommendations as detailed below.
Following are the corrective actions taken and planned for each finding.


Fiscal Year 2004 Targeted Funds Improperly Reobligated

In DIG's evaluation , DHS claimed $2,464,723 of FY 2004 targeted funds that were
unallowable because DHS reobligated the targeted funds after the obligation period had
ended.

The obligation period for the FY 2004 targeted funds ended on September 30, 2005. DHS
obligated the $2,464,723 of targeted funds in a contract with a single contractor and did so
within the timeframe specified by Federal regulations. However, in June 2006, after the
obligation period ended, DHS terminated its original contract without disbursing the
$2 ,464,723. DHS then reobligated the FY 2004 targeted funds to other contractors.

Response:

Iowa Department of Human Services does not concur with the referenced finding and the
recommendation .
                                                                                            Page 4 of 12




RE: A-07-11-03163


The relevant background and specific reasons for nonconcurrence include:
   • 	 The Department retains its original position that the state did in fact obligate and
       liquidate CCDF funds in compliance with federal and state regulations as stated in the
       agency's response to the audit of FFY1998-2003 funds. The FFY04 funds in question
       carry forward that assertion.
   • 	 DHS did not, as stated in the draft report, "terminate its original contract" without
       disbursing the $2,464 ,723. The statement implies that DHS arbitrarily opted to cease
       the relationship with the contractor, thereby putting the federal funds in jeopardy by
       doing so after the obligation period had ended .
   • 	 In fact, the board of directors of the contractor opted to dissolve as a 501 (c)(3) 

       corporation , an act DHS could have neither foreseen nor was forewarned. 

   • 	 DHS was notified of the decision to dissolve the corporation on 4/20/06. The action of
       the board occurred after the obligation period had ended (9/30/05) and without
       opportunity for DHS to anticipate or plan. The dissolution occurred prior to the end of
       the liquidation period for the FFY2004 funds.
   • 	 The resulting actions by the DHS in regards to the expenditure of the $2,464,723
       came about after extensive collaboration with the Kansas City ACF Regional Office.
       See Attachment A, Memo from DHS to KC Regional Office, dated 10/31/2006.
   • 	 In September 2006, DHS administrators and the ACF Regional Administrator and ACF
       Child Care Program Manager determined strategies to allow DHS to remedy a 'no
       fault' situation. [Note: Only one of the original parties to this conversation remains in
       state/federal government]
   • 	 Agreement was reached that if the agency could identify appropriate expenditures
       from the 4% 'set aside' expenditures, that were both obligated and liquidated within the
       required timeframes , DHS could adjust the FFY2004 .ACF-696 Financial report to
       reflect those adjustments. DHS/ACF concurred that this was a reasonable solution
       due to the fact that the agency conSistently exceeds the minimum 4% required to be
       expended for quality activities.
   • 	 ACF staff was to consult with the federal Child Care Bureau to determine if there was
       any precedent that would preclude this strategy. No further communication from ACF
       or the Child Care Bureau was received by DHS to indicate the strategy would not be
       allowed .
   • 	 In October 2006, DHS submitted the FFY2004 ACF-696 Financial Report. In
       December 2006 a narrative for the ACF-696 was submitted . See Attachment B,
       Addendum to the CCDF ACF-696 Report for the Quarter Ending 9/30/06, submitted to
       KC Regional Office, dated 12/13/06. Absent any further follow-up by the Child Care
       Bureau, DHS believed the report to be accepted.
  • 	 The ACF On-line Data Collection system indicates that the report was both reviewed
       and accepted by both the ACF Regional Office and Central Office levels.
  • 	 DHS also, at the request of ACF Regional Office, submitted a draft amendment to the
       CCDF FFY04-05 State Plan to reftect the dissolution of the contractor for the funds
       and to identify the activities corresponding to the agreed-upon expenditure adjustment.
       It was later determined by ACF Regional Office that an amendment was no longer
       necessary, as the period of the plan had expired.
  • 	 To ask now for DHS to return $2.5M in funding to the federal government, more than 5
       years after DHS acted in good faith based on the consultation with ACF/Child Care
       Bureau , is unduly punitive.
                                                                                              Page 5 of 12




RE: A-07-11-03163


DHS offers the following alternative actions:
  • 	 No refund to the Federal Government is warranted.
  • 	 DHS no longer uses fiscal agents to obligate/liquidate CCDF federal funds.
  • 	 DHS is mindful of the requirement that discretionary funds be obligated in the fiscal
      year in which they are received, or in the succeeding fiscal year (i.e. , by the end of the
      2"' FFY) and liquidated by the end of the 3" federal fiscal year. The majority of funds
      are now obligated and liquidated within a timeframe that allows for the re-obligation of
      funds , if necessary, within the allowable obligation timeframe.


Fiscal Year 2006 Targeted Funds Improperly Obligated

In GIG's evaluation, DHS claimed $134,209 of FY 2006 targeted funds that were not
obligated properly within the prescribed time period . Specifically, DHS contracted with other
State agencies to expend a portion of the targeted funds , but these contracts did not
constitute valid obligations of funds pursuant to Federal regulations: These other State
agencies did not expend these targeted funds until after the obligation period ended .
Therefore, the targeted funds that were not expended prior to the end of the obligation period
were unallowable.

Response:

Iowa Department of Human Services concurs with the referenced finding and the
recommendation .

To address this finding , DHS has taken and will take the following actions:
   • 	 DHS is mindful of the requirement that discretionary funds be obligated in the fiscal
       year in which they are received, or in the succeeding fiscal year (i.e., by the end of the
       2"' FFY) and liquidated by the end of the 3" federal fiscal year. Though we no longer
       contract out targeted funds to any state agency (i.e. , at the same level of government),
       any effort in that regard in the future would be. obligated and liquidated within the
       obligation period.


Targeted Funds Not Properly Liquidated or Refunded

In GIG's evaluation , DHS did not properly liquidate $55,306 in School Age Resource &
Referral (SARR) targeted funds.

DHS contracted with the Iowa Afterschool Care Alliance to identify and disburse grants to
childcare providers within the State. Although the Alliance properly obligated these funds
within the specified obligation period , it did not liquidate $34,150 in FY 2004 SARR targeted
funds within the specified liquidation period.

DHS properly obligated and then drew down all of the FY 2005 SARR targeted funds to
disburse; however, during its reconciliation , DHS determined it did not disburse $7 ,388 in
targeted funds to its contractors. DHS identified this error after the liquidation period ended.
                                                                                            Page 6 of 12




RE: A-07-11-03163



In addition, the grantees returned to the Alliance $13 ,768 in unexpended grant funds relating
to FYs 2005 through 2008 SARR targeted funds after the respective obligation and liquidation
periods ended. Although the funds were obligated and liquidated properly, these unused
funds could not be reobligated because the obligation and liquidation periods expired .

Response:

Iowa Department of Human Services concurs with the referenced finding and the
recommendation.

To address this finding , DHS has taken and will take the following actions:
   • 	 DHS is currently reviewing the best strategy to use with the School-Age Targeted
       Funds. Should provider grants continue to be a component of that strategy, DHS will
       instruct the contractor that all claims for grant funding must be received by providers
       by the end of the 3'" quarter of the 2" year of obligation to allow for re-obligation ~
       necessary. Furthermore, expenditures will be tracked on a quarterly basis with the
       contractor to assure that all funds are liquidated within the allowable timeframes.


Inadequate Policies and Procedures

In OIG's evaluation, DHS did not have adequate policies and procedures in place to monitor
the obligation and liquidation of CCDF targeted funds pursuant to Federal requirements.

Although DHS performed one site visit per year at each of its contractors and required that
applicable contractors submit audited financial statements, it performed no monitoring of its
CCDF targeted fund contractors to ensure that the contractors properly obligated and
liquidated targeted funds.

Iowa Code requires that documentation contain sufficient detail to support requests for
payments; however, DHS did not ensure that the invoices contained documentation sufficient
to support the payment requests prior to approval of the invoices for payment.

Better monitoring, to include adequate review of the supporting documentation, would have
revealed that the targeted funds were not being obligated and liquidated pursuant to Federal
requirements.

Response:

Iowa Department of Human Services concurs (but not in whole) with the referenced finding
and the recommendation .

To address this finding , DHS has taken and will take the following actions:
   • 	 The contract program manager did track the obligation and liquidation timeframes for
       funds issued to contractors. In some instances, providers failed to submit invoices for
                                                                                           Page 7 of 12




RE: A-07-11-03163


      grants they had requested , or failed to cash checks they had received , resulting in
      unexpended funds .
  • 	 Both the budget analyst and the program manager now keep spreadsheets that
      indicate the obligation and liquidation dates, and also track the fund ing issued by
      contract for each federal fiscal year. The program manager maintains spreadsheets for
      each coniractor and funding code to track spending on a monthly basis.
  • 	 At least one quarter before the liquidation period ends, the program manager confers
      with contractors to assure that all funds will be spent in a timely manner. Contractors
      provide documentation that aligns with funding codes prior to payment.
  • 	 The majority of funds are now obligated and liquidated within a timeframe that allows
      for the re-obligation of funds , if necessary, within the allowable obligation timeframe.
                                                                                 Page 8 of 12




RE: A-07-11-03163


                                     Appendix


Attachments:

     Attachment A, Memo from DHS to KC Regional Office, dated 1013112006

     Attachment 8 , Addendum to the CCDF ACF-696 Report for the Quarter Ending
     9130106, submitted to KC Regional Office, dated 12113106
                                                                                                             Page 9 of 12




                                                                                                   ATTATCHMENT A 





                                                                        STATE OF IOWA 

 THOMAS J. VIlSACK, GOVERNOR                                               DEPARTMENT OF HUMAN SERVICES
 SAl.LV J. PEDERSON, LT. GOVERNOR                                                    KEVIN W. CONCANNON, DIRECTOR



Octobe<31,2OO6

TO:       Kansas City Regional Office

 Attn:    Angela Hedges. Financial Ope~ons SpeCialist

 From: Mary-Nelson, Administrator. Child and Family Services
           Jan Clausen. Administndor. FiSCBl Management

  Attached is the FFY 2004 ACF-696 Finan~al report for the period ending September!.O. 2000 .
. Per OUT discussion via conference ca.ll on September 13. 2006 with Linda Lewis and sUd'fin the
  Kallsas City Regional Office', we are requesting your approval of adjustments made pn this report:
  The adjustments are necessary due to the dissolution of a Contractor with whom  we    had obligated
  fundin~ fOr Infant and Toddler and Quality Bamuuks. The-disSolution ofthccontractor occurred
  after ~ obligation period ended but: prior to the end of the liquidatlon period,for FPY 2004 •

. The Department amuaUy exceeds the 4% minimunl reqoired for expenditures under 'the quality­
  set-aside. Wr:. have identified set-aside expenditures that were both obligated and liquidated
  within the req¢red timeframcs. that also meet the mquirements of the earmarks for Infant and
 Toddier and Quality per ACYF-PI..cG-99..Q5. These expel!ditures are reflected on lines l(c) and
 l(d). Line l(b) has been reduced by the total of l(c) and l(d) per the chart belOw. These
 adjustments fuDy ~pend the FFY 2004 earmarks wbHe maintaining expenditures: in ei~s 'o f the
 required 4% for the quality-set-aside. A corresponding adjustment is made on this report to line
  1(g) to alj~ expendltures for qirect services with:the correct FFY.

         Adjustment to Earmark          AdjustmeDt from Set·AMde           AmonD1
         Qu.lm-                     Child Care W             Gnnts        SI 560 808
         Infant and Toddler -       Child Care Resource and -               $903,915
                                    Referral contracts for Parent
                                    SeTVlceS

 -Please contact Mary Nelson at 5151281-5521 or Jan Clausen at 515-2814987 if you have
  questions or would like additionaJ clarification on the adjustments made to this report. We look
  forward to your approval. .

  0;:: 	Linda Lewis. ACF, ~gjonal Administrator. Region vn 

         Betty Lammle.. Regional Child Care Program Manager 

                                                                  FFY 2004 Child Care Targeted Funds




QII.., 1IUor.MIoD: SI)60,JOl, lDr-'ToddIoo" aIocaIIoa9-»06
•• PedJ __ ~byJ.JQ.Oj _1iqOIWIMd by
                                                       S9Ol,l!!




                                                                                                       "t:l
                                                                                                       rJ8
                                                                                                       -
                                                                                                       (I)


                                                                                                       o

                                                                                                       -
                                                                                                       o
                                                                                                       ...,.,
                                                                                                       N
                                                                                                                      Page 11 of 12




                                                                                                            ATTATCHMENT B 




. ~.
.        Fldds of ()ppo<tDnDico                                          STATE; OF IOWA
    THOMAS J. VIL.SACK, GOVERNOR                                             DEPARTMENT OF HUMAN SERvicES
    SALLy J. PEDERSON, LT. GOVERNOR                                                   KEVlNW. CONCANNON, DIRECTOR




       December 13, 2006

       Addendum to the CCDF ACF-696 Report 

       For the quarter ending September 30, 2006 


       Discretionary Funds - Eannarked Ainounts

       FFY04
       The SchOO~e Resource and Referral funds were liquidated on September 15, 2005 with the Iowa After
       School Association, in their capacity as a fiscal agent for the Iowa Department of Human Services.
       The School Age Resource and Referral earmark funds were di~ tOwards providing support for
       Individuals who care for children during their out-of-school time. Activities include scholarships to ~ttend
       the state school-age conference, making start~up and replenishment grants available to providers and
       supporting the delivery of Wek:ofne to School Age Care training through the Child Care Resource and
       Referral (CCR&R) system.

       The Infant and Toddler funds were Hquidated by September 30,2006. The funds supported a portion of
       the p8r~nt referral services for Infant and toddler care performed by the CCR&R's.

       The Quality earmark funds were liquidated by September 30, 20~ . The funds supported a pOrtion of the
       child care wraparound grants administered by the Department to provide fuU-day, full-year, high quality
       child care to low-income chikiren . .


       FFY05:
       The majority of the funds earmarked for School Age Resource and Referral were obligated as of August
       2B, 2006 with the Iowa After School Association, in their capacity as a fiscal agent for the Iowa
       Department of Human Services. Funds were also obligated to the Child Care Resource and Referral
       agencies as of July 1, 2006. These funds will be liquidated by September 30, 2007. The School Age
       Resource and Referral earmark funds were directed towards providIng support for individuals who care
       for children during their out-of-School time. Activities include scholarships to attend the state school-age
       conference, making start-up and replenishment grants available to providers and supporting the delivery
       of Welcome to School Age Care training through the Child Care Resource and Referral (CCR&R) system.

       The Infant and Toddler funds were obligated by September 30, 2006 and will be liquidated by September
       30th , 2007. The Infant and Toddler eannark funds are directed primarily towards QRS grants to providers
       to assist them In achieving a level in the QRS system; a study of the current PITC system to develop
       recommendations for enhancements and improvements to the data base for prtc; expansion of Eany
       Head Start programs; and support for the provider training registry.

       The Quality earma/1( funds were obligated by September 30, 20~ and will be liquidated by September
       30,2007. The Quality funds are directed primarily towards QRS grants to providers to assist them In
       achieving a-level in the QRS system; QRS public awareness campaign; revision and delivery of
       foundation training f9r child care home providers; support to Iowa's community college's Early Childhood
       Alliance; support to the Early Childhood Iowa's professional development efforts; study ,o f appropriate use
       of sanitation and pesticide use in child care settings; delivery of Tom Copeland training to CCR&R staff
       who provide business training to home providers; implementation conference for Iowa's Earty Learning
       Standards; development of an intermediate child care horne provider training; delivery of consultation
       training to CCR&R consultants; delivery of NARA training to DHS regulatory staff, and strategic planning
       to develop a Child Care Business Development Center in Iowa.
                                                                                                           Page 12 of 12




                                                    - 2­


FFY06: 

The funds earmarked for School Age Resource and Referrnl will be obligated by September 30, 2007 

with the Iowa After Schoo) Association, in their capacity as a fiscal agent for the Iowa Department of 

Human Services. These funds will be liquidated by September 30, ZOOS. 


The Infant and Toddler funds were obligated by September 30,2006 and will be liquidated by september 

301h ,2oo7. The Infant and Toddler earmark funds are directed primarily towards the funding of Iowa's 

Providers of Infant and Toddler Care (PITC) effort, including infant and toddler specialists located in the 

CCR&R's, delivery of the five PITC modules, and traIning plan bonuses for child care providers; ORS 

grants to providers to assist them in achieving a level in the ORS system. 


The Quality earmark funds were obligated by September 30, 2006 and will be liqUidated by September
30,2007. The Quality funds are directed primarily towards the funding of Iowa T.E.A.C. H, a scholarship
program which provides funds for scholarships, transportation, release time, and books for both home
and center staff; expansion of the statewide coverage of child care home consultants who provide in­
home tecl1nical assistance arid quality improvement to child care home providers; expansion of the parent
services available in the Child Care Resource and Referral (CCR&R) agencies; providing resources to
chIld care home providers who access the services of the child care home consultants (TLC and business
kits); support for the Child Care Business Practices project, .which funds start-up and emergency grants,
as well as providing training and technical assistance to child care centers, including the delivery of the
National Administrator Credential (NAC) training; support for the Healthy Child Care Iowa partnership.
which provides training, resources and technical assistance to child care providers; support for the
coordination of the CCR&R system; support to the Early Care, Health and Education Conference. and
QRS grants to providers to assist them in achieving a level in the DRS system.

[end[
